ytff of ff)
20iB JUL 20 An 9* 40
STATE OF NEW MEXICO
COUNIT OF CIBOLA
IN THE DISTRICT COURT

I

Pi-::- '=

5

BY

MICHAEL ARMENDARIZ,
Petitioner,

Case No. D-1314-CR-2002-0470

v.
STANLEY MONTOYA, Warden, and
STATE OF NEW MEXICO,
Respondents.

FINAL
ORDER ON PETITION FOR HABEAS CORPUS
and
MOTION TO DISMISS
This is a final order dismissing Petitioner’s Petition for Habeas Corpus, with prejudice.
The Court entered a proposed decision on June 13. 2018. All material underlined is new and was
added after the hearing of July 19.2018.
The Court heard all of the matters raised at the July 19.2018 hearing and allowed
Petitioner to present an offer of proof through his attorney and through one witness and permitted
the submission of exhibits “A” through “P” by the Defendant After consideration of the filings
hv counsel in preparation for the July 19.2018 hearing, their arguments, and die offer ofproof
permitted, the Court finds the Petitioner failed to meet his burden to raise any grounds for the
granting of habeas corpus relief and therefore summarily denies the Petition and grants the
State’s Motion to Dismiss. See non-underlined portions of this final order for the reasoning of
the Court, which appears next and which non-underlined portions were the proposed decision of
the Court; The Court grants the State’s requests to change this decision, which two changes are
shown fav appearing within double parenthesis below. The first change appears at page 8 and the
second appears at page 9 below.
This matter came before the Court on Petitioner’s Petition for Writ of Habeas Corpus and
Respondent’s
Motion to Dismiss and Request for Clarification of Certain claims. The Court
on
reviewed the filings of the parties, the arguments of counsel, and the seven volumes of the

transcript ofthejury trial of Petitioner, said trial having occurred starting on August 4,2003 and

I

ending on August 12,2003. Petitioner was found guilty of murder in the first degree and other
lesser felonies and was acquitted of some lesser felonies. The verdicts were handed down by the
jury on August 12,2003 on fee seventh day of trial. An appeal was duly taken and a decision
was issued by the New Mexico Supreme Court and filed on August 3,2006 (2006-NMSC-036,
No. 28,320). Petitioner filed this Petition for a Writ of Habeas Corpus on June 6,2007.

1

The Petition is based upon the referenced jury trial which was held in connection with an
alleged first degree murder and other crimes committed by Petitioner at the Two Minute Warning

■

2-5 af */£)

Bar in Los Lunas, New Mexico, on October 5,2002.
The allegations of the Petition contain many claims of deprivations ofrights, the vast ■
majority of which are argumentative, conelusory, or matters that could have been raised before
the Supreme Court. The gravamen of the Petition is ineffective assistance of counsel and the use
of a indeo submitted to the jury of the killing by Petitionei-of decedent Montano and the shooting
ot decedent s brother. These claims are defined below. The court proposes to dismiss
summauly all claims for lack of evidentiary support alter a voluminous record was reviewed by
the Court, as well as based on filings and arguments of counsel.
INEFFECTIVE ASSISTANCE OF COUNSEL:
A
Jh-e G?UIt g!ves one example of a claim made which is unsupported by the evidence Mr.
Armendam claims his attorney “wrongfully stipulated to an edited and abridged version of a
cructa! piece of evidence” (see paragraph 3 of the Petition). This is in reference to the video taoe
of the shootings admitted at the trial. However, defense counsel did not stipulate to its
a mission. Volume IV, pages 84-87 show defense counsel engaged in a voir dire examination of
e witness through whom the video was to be admitted into evidence by the State (Detective
Charles Nnanezof the Los Lunas Police Department). After his voir dire examination, defense
counsel objected to the admission of the video on the grounds that it was “not an accurate
r r ,ofthHentS <Vo1-IV> pages 87'88)- befense counsel’s objection was overruled and

The admission of the video of the shootings over objection could have been raised on the
appeal to the Supreme Court. It was not, There is reasoning behind not raising the matter before
the Supreme Court as seen below, which amounts to a defense tactic at trial to minimize the
s lowing of damaging evidence to the jury, rather than a true preservation of error effort Relief

while i was a slowed down” version of the original, it nevertheless was a “replica” ofthe
onginaland lie stated that m the admitted tape you see “exactly what, you see in die original”
( o , IV, page 94) in response to a question by the prosecuting attorney.

VIEWING OF THE ORIGINAL TAPE (SUPPRESSION BY THE STATE):
The State in thi^ Habeas Corpus proceeding also allows for the possibility that the Habeas
Corpus claim feat the ‘prosecution failed to provide defense counsel with an opportunity to view
the ongmal video recording at the Two Minute warning bar” should not be dismissed The
record does not bear out that tois occurred to the extent that file State either suppressed or
prevented in somefashion defense counsel from seeing the original tape. Outside of the presence
of the juiy and just before tnai, at VoU, pages 14-16 there was an exchange regarding the
viewing of the “security tape” or video from the Two Minute Warning bar. Defense counsel Was

<2.

26

expressly given the opportunity to view the version of the original that was to be submitted to the
jury. Defense counsel stated he had not had a chance to speak to the State’s attorney Lopez
because Defense counsel was at a trial in another location; defense counsel stated that he was
working with the State’s attorney to try to stipulate to the "admissibility of the tape” (Vol, I, page
16)-Defense counsel was referring to the version of the tape taken from the original, [the Court
notes here that no such stipulation was entered and tire tape was admitted over defense objection
to the tape-see discussion above] The Defease also stated that he had “a good working
relationship with Mr. Lopez. Discovery has been flowing.” (Vol, I, page 16) The State’s
attorney expressly stated that Defense counsel should have the opportunity to see the tape in the
version to be admitted before opening statements (Vol, I, page 15). There is clear evidence of
cooperation by the State, rather than suppression or hindrance to discovery.

i

;

Furthermore, the testimony of Charles Apodaca becomes pertinent regarding the vieweing.
of the original tape at his bar, as he is the owner of the Two Minute Warning. Mr. Apodaca was
called as a Defense witness and be stated that the video could be seen at his bar in “real time”
(Vol. V, page 118) and the charge would be $300.00. Mr. Apodaca stated be told the prosecution
or die police regarding viewing it at his business place (the Two Minute Warning) but never
discussed price with them because “they told me they didn’t have the money.” (Vol, V, page
119). The above exchange took place in the presence of the jury.
At pages 120-121 on cross-examination Mr. Apodaca stated he would be willing to let
them go down to his business and view it for $300.00 but he would not bring it to the courthouse
for that amount. No request was made by anyone to View the original at the Two Minute
Warning by the jury nor to make some arrangement to bring the equipment to the courthouse.
No evidence appeal's anywhere that the State in any manner hindered the Defense from acquiring
the original tape or equipment-no one requested the Court to order it brought to the Courthouse
for viewing on the original equipment.
i

The production of the original would not have made any difference. On re-direct
examination of Detective Nuanes by the State (Vol. TV, pages 111-113) evidence was being
produced from the Detective that the video, being shown to the jury, showed no “scuffling”
immediately prior to the shooting and as the Defendant was pointing the gun. Defense counsel
objected by stating that the “tape speaks for itself’ (Vol, IV, page 113). The objection was:
sustained. It is obvious that the frame-by-frame questioning by die State’s attorney was
devastating to the claim of self defense or defense of another theories of the Defendant and
Defense counsel opted successfully to stop this testimony through the admitted video of the Two
Minute Warning. The Court considers this a reasonable tactic to stop or interrupt testimony
directly bearing on the video tape admitted which was demonstrating that the Defendant was not
acting in self defense nor in defense of another.
The jury, during deliberations, saw the video a second time. Defense counsel initially
objected unless it was done in open Court, which actually occurred and Defense counsel
withdrew the objection and the jury saw the video in open Court during the deliberative phase of
the trial (Vol. VI, pages 92-95). Defense counsel’s original objection was that the jury had
already seen the tape-the defense tactic, feasible at this point, was to minimize damaging

!
!

!

i

r

'

ZZ of Vsj

testimony from the video being seen again by the jury on its own over and over. This militates
against Mr. Armendariz’s claim that the tape-would show self-defense or defense of another just
prior to and at the time of the shooting and shows reasonable tactics by the defense to minimize
die damage being done by the video to the defense.

!

WITNESSES TO THE SHOOTING AND EVENTS IMMEDIATELY PRIOR and THE
VIDEO:
The State presented witnesses which unequivocally stated that Defendant’s friend, Mr.
Nestor Chavez, was only being properly restrained on the hood of a car by decedent Damacio
Montano and his brother Eric Montano and were not beating him but were rather trying to subdue
him fr om continuing to fight. The Defense, one the other hand, presented eyewitness testimony
to the effect that decedent and his brother were beating Nestor Chavez in a bad way and choking
him to unconsciousness, when Mr. Armandariz went to a car and returned with a gun in his
possession and that decedent kept heating Nestor Chavez after being told by Defendant to stop,
immediately after which the shooting occurred (which by Defendant’s version occurred when
decedent Damacio “charged” Defendant after refusing to stop beating Nestor Chavez.
The record and Mr. Armendariz’s arguments and evidence fail to demonstrate that a
“clearer” version of the video would change the result. The jury saw it twi ce and the defense
objected tactically to avoid destruction of its only defense—sel f defense or defense of another, ft
is apparent that Defense counsel concluded that viewing the “original” video by the jury could
make things worse for his client and therefore did not pursue that avenue. This left open his
ability to argue that the video showed “ghosts” as he did in closing. See Vol. VH at pages 75 and
76 which shows the following closing argument:
“The survellience camera is so bad, folks, that the State has to call in an
interpreter, because if you look at it, you are not going to be able to tell
who’s on first and what’s on second. . ,
They are ghost images. It’s impossible to even identi fy the gender. And you have to
really, really trust Let. Nuanes. And I don’t have any reason disbelieve him. 1 mean,
how can I? I’m looking at the same crummy evidence you are. And whose fault
is that?”
With a clearer video (if the original is that much clearer), Mr. Armendariz’s attorney would haw
no self-defense argument left based on the record. It is apparent that if the video shown to the
jury was in fact clearer, defense counsel would rather not have that seen by the jury and only one
reason makes tactical sense-it would weaken or destroy his self-defense or defense of another
defenses.
The Petitioner’s Response to the State’s Motion to Dismiss, at paragraph 12 asks the
Court to review the
video of the shooting that was shown at trial-a video that, despite its numerous

i
I
:

•

deficiencies, shows: [emphasis added by the author]
(1) that Mr. Armendariz did not want to be involved in the altercation outside the
bar;
(2) that his friend Nestor Chavez was enduring a severe beating that could have
resulted in his death;
(3) that Petitioner and Sandra Baray searched feverishly for the car keys to drive
away fhn the scene;
(4) that Sandra handed Petitioner a gun, which he ultimately brandished in the
hopes that it would breadk up the fight;
(5) drat Petitioner tried to walk away without firing any shots, but was forced to
turn around by the decedent who pointed his own gun at Petitioner; and
[emphasis added by author]
(6) that shots were fired either in self-defense or in defense of another.”
Paragraph 13 of the Petition also requests thatthe court consider this video which shows
Petitioner acted in self-defense or in defense of another.
As pointed out elsewhere in this decision, this video was shown to the jury during trial
and the jury requested that it be shown a second time, which was done over objection by defense
counsel who relented only after the Court agreed to show the video to the jury in open Court and
not in the privacy of deliberations. Defense counsel’s strategy is clear-to minimize the damage
to the self-defense theory of Petitioner and his “defenseof another’ theory by preventing the jury
from seeing the video an unlimited number of times. A “fuzzy” video could have been thought
to be better than a “clear” video by defense counsel because it allows him to argue his
theories-the Court will not second-guess such a strategy as being as ineffective assistance of
counsel since, under the rest of the facts of the case, it could be the best that could be done under
the circumstances. See the next section regarding the claim that the video shows another gun-in
the Court’s opinion defense counsel was absolutely competent in not pursing the theory of
another gun due to the very damaging testimony by all witnesses that the only gun at the shooting
was the one held by Petitioner himself.

ANOTHER GUN:
Defendant’s attorney in Habeas argues there is evidence of another gun being used at the
shooting which affects ihe case. The Court considers this argument without merit, contrary to the
facts adduced at trial, and likely to be very damaging to the self-defense and defense of another
theories. The eyewitness testimony, if consistent on anything, is consistent on the issue that the
only person who had a gun at the shooting was the Defendant. The ballistics witness simply

-j
J

(/=«■? a-Z? af <ysj

coul d not tic some of the casings to the specific gun, hut was able to tie no less than six of them
to one gun and also tied one bullet taken from decedent’s body and one from Eric’s (Damacio’s
surviving brother) body to the same gun. No eyewitness For either side stated there was any other
gun.
The Defendant himself met with Dr. Westfried, Ph. D., who wrote a report on 6/10/10.
Mr. Armendariz’s version of the shooting appears in float report at pages 10 and 11. He stated in
part to the examining psychiatrist what he saw regarding decedent Damacio as he shot him:
“I was tunnel vision for this dude. Kind of like underwater. Didn’t know what was
going on. I am looking at the dude and watching his moves. * * * With the brutal beating
I saw, I knew he was a threat. Nobody in their right mind wants to light a gun. I
know he is not all there.. .so we’re leaving and need to back up and let everybody in the
car. This Eric stands by the driver side door. Ttold him, ‘It’s over, say ‘se acabo’, we are
leaving.’ I am thinking they are gang people (their behavior), or knuckleheads. We are
trying to leave (but they blocked our way). I tel! them to move (so I could go). He
understands. The guy to the right (Damasio) and he’s like a bull. (Described Damasio
kicking his feet on the ground and raising his head while arching his back downward).
When I saw him do that, I knew this is bad. If he gets the gim, he will kill me or Nestor.
* * * 1 turn aiound. He still doing the bull thing and breaks off and comes straight for
me. All 1 see, like dream, fighting and can’t swing,... 1 shot toe dude. * * * Hit toe left
upper chest (of Damasio). Like I’m shooting, gun firing, but not affecting him at all. I
am shooting till no longer a threat. * * *1 keep shooting while he is running at me.... I
shoot till he goes down. Once he’s down, I look at him and look around me * * * f run
In Mr. Armendariz s version of the shooting, there is no gun but the one he is using. No other
witness saw another gun, only the one being held by Mr. Aranendariz. The evidence is
overwhelming and uncontradicted that neither decedent Damacio nor anyone else had a gun as
Defendant shot Damacio.
Defendant was told that he only fired two shots and another person at toe scene fifed
another gun (Dr. Westfried report at page 12). Defendant did not believe it and was in “shock
and dismay” when told that experts said he only fired two shots. He also did not believe this
disclosure made by the legal assistants about Defendant firing two shots as opposed to his belief
of seven times. AH toe witnesses and the ballistics testimony bear out that Mr. Armendariz is
correct that the gun was fired many more times than two and was fired at least seven times as he
himself believes-Dr. Rebecca Irvine, the pathologist who testified for the State, opined that
decedent was shot seven times as she found seven entry wounds (Vol. IV, page 41).
There is not a hint of evidence that a second gun was used. All the evidence is to the
contrary and it is impossible to see how it could be overcome. In feet, more than one witness
testified that Defendant, earlier in the evening, brandished a gun he had hidden on his person-see
the testimony of Monica Padilla at Vol. fi, page 186-toe gun per this testimony was hidden under
Defendant’s shirt. Defendant showed the gun to another person by toe name of Jeff Medina

'

=- 3d ,3 35J
!

!■

inside the bar (Vol. n, page 197).
Romulo Barela stated that inside the bar Defendant showed a gun by picking up his shirt
in response to taunts by some correctional officers, saying “east side” as if in reference to some
gang {Vol. Ill, page 22). Cheri Padilla, who testified forDefcndant, stated that neither Eric nor
decedent Damacio were armed (Vol. V, page 97) and testified she heard “around five, maybe
six" shots (Vol. V, page 76). She stated she saw Defendant disappear and “he came back around
and he had a gun.” (Vol. V, page 74).
It is apparent that there is no point in pursuing the matter of a second gun further. Too
many eyewitness accounts place one gun at tire scene and it was in the possession of Defendant
inside the bar or just prior to the shooting and during the shooting. It is inconceivable that a
video tape would show a second gun such that it would be helpful to change a juror’s mind about
the Defendant’s guilt, even assuming the video showed another gun.
It is plausible that defense counsel, knowing in advance what the witnesses knew and
what their testimony would indicate, would not want a clearer version of the video shown to the
jury. Defense counsel could easily have concluded that the tape shown to the jury, however,
much he criticized it, is all he wanted the jury to see. Showing a clearer copy may only show
more clearly that there was no second gun and that the shooting was not justified. It may even
show Defendant leaving the scene briefly and coming back with the gun used to kilt
Damacio-this could be construed as strong and confirming evidence of pre-meditation right on
the video itself (see testimony of Cheri Padilla, Vol. V, page 74).
MISCELLANEOUS FACTUAL ALLEGATIONS:
1. Lack of communication before trial-raised by Petitioner stating there were only two
visits with him prior to trial and two telephone calls by his defense attorney; There is nothing
shown that this resulted in any ineffective assistance and the Court has sifted through and written
about the specific claims of ineffective assistance individually in other parts of the decision.
2. Tampering with the vidco-Petitioner alleges his mother, Diana Crowson, overheard
a conversation that she interpreted to mean there was tampering with the video tape because the
person working on the video tape for the Los Lunas Police Department said they were “making
sure everyone was in the right place at the right time.” (Page 2, paragraph 1(B) of tire Petition)
Nothing in the record supports tampering with the video, nor is there any serious issue raised in
this regard by any facts available to the Court.
3. Edited video-the record does not bear out “editing” nor an agreement by defense
counsel to admit the video as claimed by Petitioner, It went in after a proper foundation was laid

and over the objection of defense counsel as detailed elsewhere in this decision. This could have
been raised on appeal. Any “editing” claimed does not show in any way that there was
ineffective assistance of counsel. (See page 3 of Petition for Writ) There is nothing to support
the claim that the “unaltered copy” of the video shows “the friend being cholced into
unconsciousness”-the eye witness accounts are direct visual accounts and ate in direct oppostion

JS

V5)

to each other-the State witnesses testified that tlie “friend” (Nestor Chavez) was the instigator of
the altercations and was being simply “subdued” by Damacio and/or Eric to prevent him from
hitting them-the Defense witnesses state that the decedent ahd/or Eric were severely “beating”
Nestor Chavez. It is unknown as to how these two directly contradictory accounts can be
resolved by either a “grainy” tape or by the “original” which is similar to the “grainy” tape seen
by the jury on two separate occasions during the trial. Nothing has been submitted to show that
the “original" would probably sway a jury in Defendant’s favor and the indications are that
Defense counsel was better off with the “grainy” tape in light of his conduct and in light of all the
testimony of wi tnesses believed by the jury.
Vangie Aragon, a Defense witness (see next paragraph), gave testimony to the effect that
Eric, Decedent’s brother, was just before the shooting trying to “calm” down Nestor, her
husband-to-be, and did so by. slamming him against the car as he fought Damacio Montano (Vol.
V, page 43). This testimony highlights the issue as to whether the video tape, in a parking lot at
night, could truly show the difference between a fight, someone being subdued as opposed to
being mistreated, and who was actually fighting.
All of the Defense witnesses had patent credibility issues. Charles Apodaca, owner of the
Two Minute Warning and eyewitness for the Petitioner, was being sued at the time of tr ial by the
Estate of Damacio Mon tano as he admitted to the jury (Vol. V, pages 132-133) and was
sufficiently disturbed by the lawsuit that he was considering his own lawsuit against tire
Montanos for creating an inherently dangerous activity at the Two Minute Warning (Voi. V, page
133). Witness Cheri Padilla was convicted of trafficking heroin as revealed to the jury (Vol V.
p. 106). The only other defense witness, Vangie Aragon, was the girlfriend of Nestor Chavez’s,
had known him for 10-11 years and was at the Two Minute Warning on the date of die shooting
to celebrate her engagement to him (Vol. V, page 35).
4. Testimony by Petitioner—Petitioner has argued that he would present several
witnesses at an evidentiary hearing, but has never stated that he would personally testify.
Therefore, he has not identified any evidence which would prove that he wanted to testify and
thaLcounsel prevented him from doing so. The court must therefore assume that his trial counsel
advj.sed_him not to testify, and that he accepted counsel’s advice. The trial attorney would have
many reasons to have advised against testifying, specifically:
a) a felon carrying a gun Inside of a bar and brandishing same in the bar~what could
possibly be the purpose for such conduct hours before the shooting?
b) fleeing-the evidence was uncontradicted that he fled the scene immediately after the
shooting. This is not easily reconcilable with a self-defense or defense of another theory
he was depending upon for his defense against the first degree murder charge. Why run?
c) hiding the gun-his attorney, presumably with Petitioner’s consent, told the jury the
Petitioner did tamper with evidence by hiding the gun and to find him guilty of tampering
with evidence (Vol. V, page 81). While it is unknown whether he would admit that had
he testified, certainly Petitioner would have a lot to explain about getting rid of the

!

C'M^3Z sf

weapon he just used to kill another person and try to kill another.
d) specific intent-taking concealed weapon into a bar as a felon, pretending he was calm
then acquiring a weapon after he as released by Romulo Barela (Vol. in, pages 28-29),
acquiring a gun after saying he was “cool” then threatening to shoot a “f........g pig”,
firing the gun seven times into decedent, some in the back and some after decedent fell
(see Eric Montano testimony, Vol. IV, pages 153-154 and the- testimony of Dr. Rebecca
Irvine regarding entry wounds through decedent’s back at Vol. IV, page 24), fleeing,
hiding the gun immediately after the shooting, and eventually being arrested in another
state, would be rife with questions as to whether he knew what he was doing (specific
intent to kill) and whether what he had done was known by him to be murder so he stayed
away until arrested two days later in tile State of Colorado.
e) Mr. Armendariz was also a convicted felon and subject to cross-examination-see Vol.
pages 77-78; by not testifying, the testimony was limited to witness Nuanes stating
that Defendant, was simply a convicted felon in the last ten years and was sentenced to
prison as a result. The prior charge was aggravated battery with a deadly weapon
which could be devastating to all of his defenses-the actual crime of aggravated battery
with a deadly weapon was not mentioned to the jury, but it might have if he testified.
There are numerous and compelling reasons why it would have been extremely unwise for Mr,
Armendariz not to testify. These reasons, compared to the favorable testimony to be given by
Mr. Armendariz, override his notion to testify and it appears that it would be ineffective
assistance of counsel to advise him to testify under these circumstances.
5. Prejudicial comments by counsel to Mr. Armendariz and one allegedly sleeping
juror-these allegations have no substance and are not considered to be habeas corpus issues.
6. Jury Selection-nothing out ofthe ordinary occurred here and there is insufficient
information to delve into all the details of jury selection to search for possible ineffective
assistance of counsel.
7. h ailure to give “a complete or legible copy” of discovery by counsel to
Petitioner-this borders on a total waste of time and will not be considered as habeas material.
8. Failure to .investigate--Petitioner complains that “rumors” about witness conduct
should have been investigated-this is totally within the judgment of the attorney given limited
funds and time. He complains feat fee medical records of Mr. Eric Montano should have been
acq uired to get a blood-alcohol content-there was ampl e evidence of everyone’s drinking,
including Erie Montano’s-see VoI. IV at page 123 indicating feat Eric Mo'ntano “opened up a
tab” on his credit card, ordered bottled beer and ordered a pitcher of beer later (page 125). He
arrived at 10:30 -11:00 p,m, Eric Montano, per a defense witness, put his hands up in fee air
and backed off when Petitioner pulled the gun and Eric was “real calm” (Vangie Aragon
testimony, Vol. V, page 48) and Eric Montano said to Defendant “We’re backing off.” There is
nothing that Defense counsel could add to change the color of this testimony since Eric Montano.

i

i

although he had been drinking, backed off, said so, put his hands in the air, but nevertheless
ended up being shot by Defendant. A precise measurement of his alcoholic content becomes
meaningless under the circumstances.
9. Failure to Present Defense Witnesses-Petitioner complains that his attorney should
have presented die co-defendants and should have interviewed witnesses presented by his mother
to defense counsel. All of the points raised by Defendant were presented through other defense
witnesses, The Court has reviewed all of the defense witness testimony and the additional
witnesses would have been repetitive and tactically it may be better to leave them off as
witnesses as at least some were convicted felons.
10. Refusal by counsel to Remove himself from the case—by Petitioner’ s own
statements this was brought to the Court’s attention and a decision was made against Petitioner
regarding his efforts to get rid of defense counsel. Petitioner has pointed to nothing that would
have required the removal of defense counsel and this Is a matter that was known and could have
been, brought as an issue on appeal.
11. Prosecutorial Misconduct—None of the statements made under this heading by
Petitioner amount to “prosecutorial misconduct" and are full of speculation about what the police
may have done and regarding negotiations with co-defendants. None of it is material for habeas
corpus and the Court finds no merit in any of the arguments made.
12. Use of the word “Pinto” at trial-(Deliberatdy Eliciting Prejudicial Material):
Mr. Armcndariz complains that the word “pinto" was used by a correctional officer at the bar and
a fight leading to the shooting started then and Mr. Armendariz claims this was brought out
through State’s witness Jeff Medina. He complains that this was a to get around the Court’s
ruling that the State was not allowed to discuss “petitioner’s old criminal record in a deal made to
keep he victim’s (Damacio Montano) domestic violence record out of the trial." See page 8 of
Petition.
No such thing was elicited by the prosecution from witness Jeff Medina (Jeff Medina’s
testimony appears at Vol. 11, pages 77-113). It was defense counsel, Troy Prichard, who on
cross-examination of Medina first used the word “pinto” (Medina testimony, Vol. II, page 106).
Jeff Medina denied that he even heard the term used the night of the shooting and only heard it
where he worked at the penitentiary (Vol. II, page 106),
This point not only has no factual basis, but it is misleading.
ORDER
Tile court proposes to enter tire foregoing decision and dismissing the Petition for Writ of
Habeas Corpus summarily and with prejudice in granting the State’s Motion to Dismiss. The
parties are to be prepared to make corrections or additions to the proposed decision and
Petitioner is to be prepared to argue why any of his allegations haw any merit. The Court will
allow a total of one hour, with Petitioner having the first forty-five minutes to make his
presentation. The State will have the balance of the hour to respond.

i

\
I

THE PETITION FOR WRIT OF HABEAS CORPUS IS HEREBY DISMISSED. WITH
PREJUDICE.
IT IS SO ORDERED.

DISTRICT COURT

■

i

*
!

d

Filed
Supreme Court of New Mexico
11/19/2018 8:32 AM
Office of the Clerk

IN THE SUPREME COURT OF THE STATE OE NEW MEXICO
November 19, 2018

1

2
3
4
5
6
7
8

Joey D. Mloya

NO. S-l-SC-37376
MICHAEL ARMENDARIZ,
Petitioner,

9
10

V.

11
12

STANLEY MOYA, Warden,

13

Respondent.

14

ORDER

15

WHEREAS, this matter came on for consideration by the Court upon petition for,

16
17

writ of certiorari filed under Rule 12-501 NMRA, and the Court having considered the

18

petition and being sufficiently advised, Jusice Petra Jimenez Maes, Justice Charles W.

19

Daniels, and Justice Barbara J. Vigil concurring;
NOW, THEREFORE, IT IS ORDERED that the petition for writ of certiorari is

20
21

DENIED.
IT IS SO ORDERED.

22

Mi

*

i

WITNESS, the Honorable Judith K. Nakamura, Chief
Justice of the Supreme Court of the State of New
Mexico, and the seal of said Court this 19th day of
November, 2018.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico

E CERTIFY AND ATTEST:

A true copy was served on all parties
or their counsel of record on date filed.
MgrfrtW. Garc&a

By.
Chief Deputy Clerk

Clerk of the Supreme Court
of the State of New Mexico

^/Oy/ X

-T

Case l:18*cv-01144-WJ-CG Document 27 Filed 11/21/19 Page 1 of 1
/-

1/

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
MICHAEL ARMENDARIZ,
Petitioner,

v.

No. CV18-1144 WJ/CG

STANLEY MOYA, etal.,
Respondents.
FINAL JUDGMENT
THE COURT, having issued an Order adopting the Proposed Findings and
Recommended Disposition of Chief United States Magistrate Judge Carmen E. Garza,
(Doc. 23), enters this Judgment in compliance with Rule 58 of the Federal Rules of Civil
Procedure. Petitioner’s Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus by a
Person in State Custody, (Doc. 1), is GRANTED as to Ground Twelve, and DENIED as
to all other claims, and this case is REMANDED to state court to vacate Mr.
Armendatiz’ conviction for aggravated battery. Additionally, pursuant to Rule 11 of foe
Rules Governing Section 2254 Proceedings for the United States District Courts, the
Court DENIES a certificate of appealability.
IT IS SO ORDERED.

THE HONORABLE ©flLLIAM P>JOHNSON
CHIEF UNITED STATES DISTRICT JUDGE

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

November 4, 2020
Christopher M. Wolpert
Clerk of Court

MICHAEL ARMENDARIZ,
Petitioner - Appellee,
v.
MARIANNA VIGIL, Warden; STATE OF
NEW MEXICO; HECTOR H.
BALDERAS, Attorney General for the
State of New Mexico;

No. 19-2206
(DC. No. 1:18-CV-01144-WJ-CG)
(D. N.M.)

Respondents - Appellants.
ORDER AND JUDGMENT*
Before PHILLIPS, BALDOCK, and CARSON, Circuit Judges.
Petitioner-Appellee Michael Armendariz is an inmate serving a sentence of life
imprisonment plus thirteen years in state prison in New Mexico. After exhausting his
state-court remedies, he filed a petition under 28 U.S.C. § 2254, alleging entitlement
to federal habeas relief on twelve different grounds. On recommendation of the
magistrate judge, the district court denied relief on eleven of the asserted grounds but

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

granted relief on the twelfth. The state now appeals. Exercising jurisdiction pursuant
to 28 U.S.C. § 1291, we affirm.
BACKGROUND
Armendariz was found guilty of first-degree murder, attempted first-degree
murder, aggravated battery, evidence tampering, and possession of a firearm by a
felon. On direct appeal in state court, he argued his convictions for both aggravated
battery (in violation of N.M. Stat. Ann. § 30-3-5 (1978)) and attempted first degree
murder (in violation of N.M. Stat. Ann. §§ 30-28-1 (1978), 30-2-1 (1978)) violated
the constitutional prohibition against double jeopardy because they arose out of the
same conduct. The New Mexico Supreme Court rejected this argument in State v.
Armendariz, 141 P.3d 526, 531-35 (N.M. 2006). Applying the “strict elements” test
from Blockburger v. United States, 284 U.S. 299 (1932), the court concluded double
jeopardy was not implicated by the multiple convictions because each offense
included an element absent in the other. Armendariz, 141 P.3d at 533-35.
In 2013, however, the New Mexico Supreme Court overruled Armendariz,
concluding that it had become “so unworkable as to be intolerable” in light of
“modifications to double jeopardy jurisprudence” after Armendariz. State v. Swick,
279 P.3d 747, 754 (N.M. 2012). Those modifications brought New Mexico “more in
line with United States Supreme Court precedent” so that “in the abstract, the
application of Blockburger should not be so mechanical that it is enough for two
statutes to have different elements.” Id. The court concluded “the [New Mexico]
Legislature did not intend multiple punishments for attempted murder and aggravated
2

(f

£ 3 S of ffj

battery arising from the same conduct because the latter is subsumed by the former,”
and so simultaneous convictions for both crimes arising from the same incident
violate the prohibition on double jeopardy. Id.
After unsuccessfully pursuing state habeas relief, Armendariz filed a § 2254
petition in federal court in December 2018. A magistrate judge recommended his
petition be granted as to the double jeopardy issue and that the aggravated battery
conviction be vacated. The state objected, and the district court overruled those
objections. This appeal follows.
DISCUSSION
“On appeal from the grant of habeas relief, we review the district court’s
factual findings for clear error and its legal conclusions de novo.” Richie v. Mullin,
417 F.3d 1117, 1120 (10th Cir. 2005). To obtain relief under 28 U.S.C. § 2254(d)(1),
the petitioner must demonstrate the state court adjudication of a claim “resulted in a
decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States.”
The Fifth Amendment, applicable to the states via the Fourteenth Amendment,
provides, in relevant part, that no person shall “be subject for the same offense to be
twice put in jeopardy of life or limb.” U.S. Const, amend. V. The Supreme Court
has interpreted this clause to “prevent the sentencing court from prescribing greater
punishment than the legislature intended,” Missouri v. Hunter, 459 U.S. 359, 366
(1983), and to protect “against multiple criminal punishments for the same offense,”
Monge v. California, 524 U.S. 721, 728 (1998). When determining the degree of
3

of YSJ
punishment intended by a state legislature, this court is bound by the pronouncements
of that state’s highest court. See Wood v. Milyard, 721 F.3d 1190, 1197 (10th Cir.
2013) (“Under our precedent, we are bound by the state supreme court’s
determination of the state legislature’s intent with respect to multiple punishments.
We may not look behind it.” (brackets, citation, and internal quotation marks
omitted)).
Because, in Swick, the highest court of New Mexico determined the state
legislature “did not intend multiple punishments for attempted murder and aggravated
battery arising from the same conduct,” 279 P.3d at 754, Armendariz’s criminal
convictions for both were “contrary to .. . clearly established Federal law,” i.e., the
Double Jeopardy Clause, Blockburger, Hunter, and Mange} 28 U.S.C. § 2254. The
district court therefore ordered that the conviction for the lesser offense be vacated.
See Wood, 721 F.3d at 1197 (“Because vacating either . . . conviction will suffice to
remedy [petitioner’s] double jeopardy complaint, the most equitable result in this
case would be one that permits the elimination of his lesser .. . conviction—or at
least permits the [state] courts that tried him to choose which conviction will go.”).

1 It is inconsequential that, as a practical matter, vacating Armendariz’s lesser
conviction will not reduce his term of imprisonment because he was still sentenced to
life. See Wood, 721 F.3d at 1195-96. (“Double jeopardy doctrine prohibits
cumulative punishments the legislature hasn’t authorized. And it’s long since settled
that a conviction, even a conviction without a corresponding sentence, amounts to a
punishment for purposes of federal double jeopardy analysis.”)

4

fyy

fd of Y5J

The state challenges this conclusion on two bases. First, it contends the
district court misapplied § 2254 by considering Swick, rather than confining its
analysis to review of the New Mexico Supreme Court decision in Armendariz.
Second, it contends the district court improperly decided that Swick was retroactive,
instead of leaving that matter to the New Mexico courts. We are not persuaded.2
Regarding the first argument, we agree with the district court that the relevant
corpus of “clearly established federal law” was not changed between Armendariz in
2006 and Swick in 2012. Rather, “both decisions applied Blockburger.” Aplt. App.
at 308. The Swick court, however, revisited its prior conclusions regarding the intent
of the New Mexico legislature. The district court was not precluded by § 2254(d)(1)
from considering the pronouncements of the state’s highest court on this issue. To
the contrary, it was bound by them. See Wood, 721 F.3d at 1195 (“[A] conclusion
about state legislative policy, coming ... from the state high court, binds us.); Birr v.
Shillinger, 894 F.2d 1160, 1161 (10th Cir. 1990) (per curiam) (“In assessing whether
a state legislature intended to prescribe cumulative punishments for a single criminal
incident, we are bound by a state court’s determination of the legislature’s intent.”).

2 We do not consider whether Armendariz exhausted his available state court
remedies as a pre-requisite to relief under § 2254 on his double jeopardy claim
because the state expressly waived exhaustion as a defense in its response to his
petition. Aplt. App. at 78 (listing double jeopardy claim as one which “Mr.
Armendariz appears to have exhausted available state-court remedies ... by
presenting them to the state’s highest court in the course of direct appeal and post­
conviction proceedings” (footnote omitted)). See Gonzales v. McKune, 279 F.3d 922,
926 (10th Cir. 2002) (recognizing that state can waive exhaustion requirement in
answer to habeas petition).
5

Regarding the second argument, the district court concluded the state waived
the issue of Swick's retroactivity by not raising it until its response and objections to
the magistrate’s recommendations. See United States v. Garfinkle, 261 F.3d 1030,
1031 (10th Cir. 2001) (“In this circuit, theories raised for the first time in objections
to the magistrate judge’s report are deemed waived.”). We agree. The state contends
it had no reason to raise the issue of retroactivity until after the issuance of the
magistrate’s recommendations, but this assertion is belied by the record. The state
did discuss Armendariz and Swick in its response to the petition, and the magistrate’s
recommendations include no discussion of retroactivity whatsoever. Had the state
wished to timely raise the issue, it could have. No sound reason exists to depart from
the usual waiver rules in this context, and we decline to do so.
CONCLUSION
For the foregoing reasons, we affirm the judgment of the district court.
Entered for the Court
Joel M. Carson III
Circuit Judge

6

&- Y2 df ysj
Allan Crawford - Fuzion Video Production
1336 Wyoming Blvd NE • Albuquerque, NM • (505)239-5898 • allan.crawfordgicomcast.net

Education

Eastern New Mexico University
B.S. in Broadcast Production
•

Video Technician. Studies in various production methods and mediums. Extensive
training with technical aspects of different film, video and electronic media. Working
knowledge of acquisition and production methods using these various types of media.

Technology Summary

Over ten years experience working with a large variety of production techniques involving a
wide range of recording equipment from video tape recorders to digital media management.
Software for editing and enhancing various types of media to deliver many types of product
from still frame images for analysis, to sophisticated programs for training, education, re­
creation and other purposes.

Experience

KENW-TV (1997 to 2001)
• Handled various technical aspects in the broadcast arena from field and studio
production techniques, to editing and delivering to a variety of media.
Fuzion Video Production (2002 to Present)
• We have handled video and film of all types for many years. From basic transfers and
repairs, to more thorough examinations and evaluations for private, corporate and legal
fields. Image and audio dean up or enhancements, as well as expert advice and
evaluations. Re-creations for crime scene analysis, and advice on many different aspects
involving video with law firms across New Mexico as well as various National programs such
as America's Most Wanted.

g°l1

EXHIBIT 2

(^

%°ie>

of yy)

Register, North, etc. The same point in time could not exist
on a separate portion
of the tape on the original video.
•

The contents of both the “certified copy of the trial video” and the purported
original video appear to have been made from the same or similar master source
which would not be the original. The “certified copy of the trial video”, does not
have as good quality image as the purported “original video”.
The security system used in the Two Minute Warning uses a multiplex recording
method. This means that each camera in the system is recorded in intervals. A
s 1 image of a point in time is recorded from each camera, one after the other If
an original tape from this system was played qn a standard Video Cassette'*
Recorder, one would see a series of flashing images from every camera angle over
time. The video would not show a continuous image from any one angle without
playing on the proper equipment.- There should be a consistent interval of frames
for every camera If the system records one frame every second, then there would
a ime stamp that skips one second evenly over the entire time span. In the
purported original video, there are several variations to the time missing for each
camera. The missing time intervals of recorded frames, is inconsistent and could
only be achieved by improperplayback equipment and/or by manipulation of the
video m a digital editing environment. (Exhibit 28)

I reviewed the interview of Lynn Russell, Manager of TAS Security Systems, Inc 2712
svTt1
u ’ A1JUqUerqUe’New Mexico 87110> who installed the security
19 2009 M p ° M]1.nUte1Wan?ng Sp0ftS Bar by ExPert Witness Jack D- Blair, on June
senf2^9' ^r‘,RUSSe !eXp amed m that mterview that the processor digitized images and
foftimSe vrTr?0t T^5* rath6r th3n m°Ving Vide° ima8es’ from the cameras to
the time-lapse VCR. If only one camera was replayed on the VCR it was similar to a

rr4u:„ta,:r^ribeca“se of 11,6 numbers °f ■«*
vide0JaP*”as tamPered
or spliced, it would leave a blank spot and
would be obvious. Each frame is sequentially numbered, with a time and date
on each
Jrame. If a frame is deleted, theframe number will not appear. (Exhibit 25)
\

•

I concluded that there are variations in the starting and ending time stamps
between the camera feeds. Because an original recording would be placing foe
same time reference to each camera feed, one should expect all foe recordings to
have the same .time stamp at both foe start and end of each individual camera
angle.

•

The original video system was a, multiplex surveillance system, with a 16camera capability, but set up as an eight-camera, record configuration.

(f>y& ^3 tfjs)
Habeas Corpus Review
by
Allan Crawford
I, Allan Crawford, was retained by the Jay R. Mueller Law Firm in February, 2010.1 am
a Video Technician and employee of Fuzion Video Production. Lwas retained as a Video
Expert, for the purposes of reviewing and evaluating videos, entered as evidence and at
trial as a State Exhibit re: State v. Armendariz.
I was requested to review a video used at trial and purported to be a an exact copy of an
original security video taken from the Two Minute Warning Sports Bar, Los Lunas, New
Mexico and determine if that video used at trial was an exact copy or had been tampered
with, manipulated, changed or deleted.
I conferred with Expert Witness Jack D. Blair and reviewed his report. Mr. Blair refers to
trial testimonies by Agent Shane Arthur, New Mexico State Police and Lead Detective
Charles Nuanes, Los Lunas Police Department that a single original security video was
taken from Charles Apodaca, owner of The Two Minute Warning Sports Bar. (Exhibit 8)
/

On March 25,2010, Mr. Blair and I traveled to the Valencia County District Court
House, Los Lunas, New Mexico. Phillip Romero, Lead Supervisor, Valencia County
District Court House, furnished the video, used in the trial of Petitioner. I used a
Mitsubishi HS-U448 Precision Turbo Drive 4 Head VHS Recorder; Panasonic AG-2560
Super Drive 6 Head VHS Recorder; and Panasonic DMR-ES10 DVD Recorder to make
one copy of the video, which I certified.
On April. 8^2010, Mr Blair, Attorney Jay Mueller, Executive Assistant Marymargaret
Ricci, Research Assistant Eddie Collazo, Special Prosecutor Michael Martinez and I
traveled to the Los Lunas Police Department, Los Lunas, New Mexico. Joe Sanchez,
Captain and Evidence Custodian Supervisor, furnished what was listed in the Los Lunas
Police Department investigation case file, as the “original video” taken from the security
system at the Two Minute Warning Sports Bar, October 6, 2002. Using (equipment), I
made one copy of the video, which I certified.
After examining the “certified trial video copy” and the purported “Original video”, I
concluded the following.
• Neither is an original video.
• Both videos are copies.
• Neither video is a copy made directlyfrom an original video. The purported
original video is not a multiplex recording. I can see a sequence of images from
each camera isolated and separate from the other cameras. There is an entire
portion of the incident for every camera; camera 16, then Front Door, East

EXHIBIT 3

& ^5" of 5)
FROM : PRODUCTION CUTFITTS3S.COM

PHONE NO. : 585 232 4419

Jul. 18 2010 08:28PM PI

• AU eight, separate cameras have identical time stamps ofdate and military time.
The time stamp across all eight cameras is set at 20 hours military time on
Sunday. The correct time stamp should read 01 hours military time on Sunday.
• I know that only one original video existed, because I conferred with Expert
Witness Blair and reviewed his Expert Witness Report, which details the trial
testimony of Agent Shane Arthur, New Mexico State Police and Lead Detective
Charles Nuartes, Los Lunas Police Department Both witnesses stated that there
was only one original video furnished by owner Charles Apodaca, from the
security system at the Two Minute Warning Sports Bar. (Exhibit 8)
I also reviewed recordings of the audio/video (Dash-Cam) systems from the Los Lunas
Police Department vehicles driven by Officers Paul Gomez and Vince Torres, during die
early morning hours of October 6,2002. Officer Gomez was driving Unit #21 and Officer
Torrez was driving IMt #19.
'

• I concluded that there is a portion oftime missing in the recording of the DashCam from Unit #19. The Dash-Cam recording is continuous until it reaches the
time stamp 01:28:16. At that time, the video jumps ahead 49 seconds to the time
stamp 01:29:05. It appears that the Dash-Coni was manipulated, to delete the 49
seconds. This coincides with thepoint in time that Unit #19 is turning the
comer infront ofthe Two Minute Warning and driving eastward on Valencia
Road.

'7-((--16
Date:

\

,Np.
fr>

In The
SUPREME COURT OF THE UNITED STATES
MICHAEL ARMENDARIZ pro se (by DIANA CROWSON)
v.
MARIANNA VIGIL, Warden; STATE OF NEW MEXICO;
HECTOR H. BAJLDERAS, Attorney General for the State of New Mexico

Petitioner Michael Armendariz requests a sixty day extension of time to file his Petition for Writ of
Certiorari until April 4th, 2021. The final judgment of the 10th Circuit Court of Appeals was entered on
November 4th, 2020. The date for filing the Petition for Certiorari will expire on February 4th, 2021.
This application is being filed on January 25th, 2021, ten days before the filing expiration due date.
The petitioner would have been able to file the Petition before it was due except he has been
quarantined as he has been very ill with COVID 19 and hasn’t had access to mail or research. He isn’t
allowed to receive or send mail, but was finally able to call me (Diana Crowson, mother of petitioner)
for the first time in several days. He asked me if I would file this request for extension of time for him
since he isn’t able to do this for himself and I have Power of Attorney for him.
I am not familiar with legal procedures and not sure how to make this request so I beg your forgiveness
for any errors. Michael Armendariz, Petitioner prays that his application for extension of time until
April 4th, 2021 to file his petition for the writ of certiorari be granted.
Respectfully submitted,
Diana Crowson for Michael Armendariz, Petitioner

RECEIVED
FEB - 2 2021
ISgRC|M°/cT0H&CTLfAK

(ORDER LIST: 589 U.S.)

THURSDAY, MARCH 19, 2020

ORDER

In light of the ongoing public health concerns relating to COVID-19, the
following shah apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1.and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the apphcation are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

IT IS FURTHER ORDERED that these modifications to the Court’s Rules
and practices do not apply to cases in which certiorari has been granted or a direct
appeal or original action has been set for argument.
These modifications will remain in effect until further order of the Court.

